                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A12040024                                                                   Page 1 of 1



                Our office received an allegation regarding a violation of reviewer confidentiality.
         Specifically, it was alleged that an individual, whose name was not provided to our office, was
         discussing the technical details of an unfunded proposal with others. 1

                We attempted to obtain the name of the individual. We provided our contact with three
         weeks to provide us with the information, after which, we explained, we would close the case.
         We did not receive additional information

                   Accordingly, this case is closed with no further action taken.




NSF OJG Form 2 (11102)
